<html>
<title> - REDUCING WASTE IN GOVERNMENT: ADDRESSING GAO'S 2014 REPORT ON DUPLICATIVE FEDERAL PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




     REDUCING WASTE IN GOVERNMENT: ADDRESSING GAO'S 2014 REPORT ON 
                      DUPLICATIVE FEDERAL PROGRAMS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

                           Serial No. 113-103

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                  _______

                   U.S. GOVERNMENT PRINTING OFFICE

87-737 PDF                WASHINGTON : 2014
______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001













              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 8, 2014....................................     1

                               WITNESSES

Gene L. Dodaro
    Oral Statement...............................................     4
    Written Statement............................................     7

                                APPENDIX

GAO Response to Question for the Record from Representative Rob 
  Woodall........................................................    52

 
     REDUCING WASTE IN GOVERNMENT: ADDRESSING GAO'S 2014 REPORT ON 
                      DUPLICATIVE FEDERAL PROGRAMS

                              ----------                              


                       Wednesday, April 8, 2014,

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 1:30 p.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Turner, Chaffetz, 
Walberg, Lankford, Amash, Gosar, DesJarlais, Collins, 
Bentivolio, DeSantis, Cummings, Maloney, Connolly, Lujan 
Grisham, and Kelly.
    Staff Present: Ali Ahmad, Majority Staff Member; Molly 
Boyl, Majority Deputy General Counsel and Parliamentarian; 
Lawrence J. Brady, Majority Staff Director; David Brewer, 
Majority Senior Counsel; Caitlin Carroll, Majority Press 
Secretary; Sharon Casey, Majority Senior Assistant Clerk; Drew 
Colliatie, Majority Professional Staff Member; Adam P. Fromm, 
Majority Director of Member Services and Committee Operations; 
Tyler Grimm, Majority Senior Professional Staff Member; Mark D. 
Marin, Majority Deputy Staff Director for Oversight; Katy 
Rother, Majority Counsel; Laura L. Rush, Majority Deputy Chief 
Clerk; Jenna VanSant, Majority Professional Staff Member; Peter 
Warren, Majority Legislative Policy Director; Krista Boyd, 
Minority Deputy Director of Legislation/Counsel; Aryele 
Bradford, Minority Press Secretary; Beverly Britton Fraser, 
Minority Counsel; and Juan McCullum, Minority Clerk.
    Chairman Issa. The committee will come to order.
    Today's hearing is on Reducing Waste in Government: 
Addressing GAO's 2014 Report on Duplicative Federal Programs.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    The Committee on Oversight and Government Reform exists to 
secure two fundamental principles: first, Americans have a 
right to know that the money Washington takes from them is well 
spent and, second, Americans deserve an efficient, effective 
Government that works for them. Our duty on the Oversight and 
Government Reform Committee is to protect these rights.
    Our solemn responsibility is to hold Government accountable 
to taxpayers, because taxpayers have a right to know what they 
get from their Government and that money is well spent. It is 
our job to work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy.
    Today, the Government Accountability Office released its 
fourth annual report on fragmentation, overlap, and 
duplications in Federal Government programs. The report 
identifies opportunities to consolidate Federal programs in 
order to both save taxpayers money and provide better services.
    Since the first report in 2011, the GAO has identified 188 
problem areas over 400 actions that the Executive Branch 
agencies and Congress could take to address these problems. 
Comptroller General Gene Dodaro has joined us here today in 
order to discuss the report and answer the Committee's 
questions. But there are some questions he won't be able to 
answer.
    For instance, how does the duplication and waste in Federal 
Government cost and how much taxpayer money can we save if we 
follow the GAO's recommendations? Through GAO estimates of cost 
savings, we find a range of tens of billions of dollars per 
year or more that we cannot provide a specific answer. Nor 
should we look for a specific answer. The American people 
expect, if there is tens of billions of dollars to be saved, 
that we begin saving them and score the savings after we have 
it.
    GAO found agencies often unable to tell them how much 
taxpayer money is actually being spent on a given federal 
program. This is part of a bigger problem. The American people 
deserve to know how much their money is being spent on any 
particular Federal program and how much of that money is being 
wasted.
    Fortunately, we have a big solution: the Digital 
Accountability and Transparency Act, or DATA Act. The DATA Act 
will bring rigorous reporting standards to Federal spending 
information; Federal agencies will be required to report on how 
they spend taxpayer dollars down to the program level.
    Improving transparency and accountability for Federal 
spending is not a partisan issue. I introduced the bipartisan 
DATA Act in both the 112th and 113th Congress along with my 
colleague, Ranking Member Cummings as its chief cosponsor. In 
both congresses the DATA Act was passed by the full House on a 
near unanimous basis.
    This week a bipartisan, bicameral compromised version of 
the DATA Act will be advanced in the United States Senate. My 
lead advocate there is Senator Warner, who in fact has worked 
together with our staff on both sides, the ranking member and 
my staff, to work out what we would call a hybrid, best of DATA 
Act.
    While there were some differences, they were resolved and, 
working together over three years, we believe we have the best 
of all answers for data of what can be done at this time, and I 
look forward to asking Mr. Dodaro more about his view on the 
current version of the DATA Act and what it would yield.
    In the testimony today I am quite sure that what we will 
find is there is low-hanging fruit; much of it is the same low-
hanging fruit that we saw a year ago and a year before that. So 
as we hold this hearing today, I ask everyone to realize can we 
any longer enjoy inaction at a time when the budget could be 
completely, budget goals could be completely reached by this 
sort of savings? And I say that every time because the budget 
compromise of last year was $23 billion over 10 years. 
Eliminating duplicative programs could save more than $23 
billion over 10 years without costing any service or any 
reductions to anyone working or retired.
    With that, I recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. I thank 
you for holding this hearing today and I thank you, Mr. Dodaro, 
for being here to testify about GAO's new report.
    This report will focus on GAO's fourth annual report on 
duplicative programs and opportunities for Federal cost 
savings. This hearing goes right to the heart of this 
committee's jurisdiction. The rules of the House identify 
Government management and accounting measures as central 
pillars of the Oversight Committee's jurisdiction.
    The committee's jurisdiction also includes the overall 
economy, efficiency and management of Government operations and 
activities, including Federal procurement. In its 2012 report, 
GAO identifies procurement of information technology as an area 
of potential savings for taxpayers. GAO highlights the Obama 
Administration's PortfolioStat initiative, which was unveiled 
by the Office of Management and Budget in 2012.
    PortfolioStat is designed to maximize IT investments by 
eliminating duplicative low value and wasteful IT spending. GAO 
estimates that PortfolioStat could save the Federal Government 
at least $5.8 billion through fiscal year 2015.
    Think about that. This one program could have the potential 
to save the Government nearly $6 billion.
    We have heard so much rhetoric recently about challenges 
and information technology investments related to the 
Affordable Care Act. We should be hearing more about the money 
the Federal Government can save through initiatives such as 
PortfolioStat.
    The House recently passed a bill sponsored by Chairman Issa 
and Subcommittee Ranking Member Connolly to improve information 
technology spending. That legislation, FITARA, demonstrates 
that there is a bipartisan support for making IT spending more 
effective and efficient.
    GAO's work shows us that there are potential additional 
opportunities to improve IT spending through bipartisan 
oversight. GAO, for example, found that OMB's initial cost 
savings estimates for PortfolioStat failed to include 
information from the Department of Defense and the Department 
of Justice because those agencies did not report information to 
OMB in the proper template. As a result, OMB's estimated 
savings from PortfolioStat were half as much as GAO's estimate, 
a difference of over $3 billion. The committee should ask DOD 
and DOJ why they failed to provide this information to OMB 
using OMB's template.
    We should also ask OMB why it released estimates without 
information from those two agencies and without clearly 
disclosing that the data from those agencies was missing. I ask 
the chairman to join me in following up with those agencies to 
ensure that we have the best information possible about how to 
cut Government spending.
    I want to take a moment to highlight an issue that was 
addressed following the committee's hearing last year on GAO's 
2013 report.
    In its 2013 report, the GAO criticized the Department of 
Defense's fragmented approach to combat uniforms. 
Representative Tammy Duckworth introduced an amendment to 
address that issue and her amendment was enacted as a part of 
the National Defense Authorization Act of 2014. Representative 
Duckworth's amendment required the Secretary of Defense to 
eliminate service-specific combat uniforms. The GAO estimates 
that all of the actions taken by the Executive Branch and 
Congress in response to GAO's first three reports have yielded 
more than $10 billion in cost savings. GAO estimates that 
billions more in savings will be realized over the next 10 
years.
    I want to applaud Representative Duckworth for her work 
following last year's hearing. I hope we can all use the 
testimony here today to inspire us to take further action.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    It is now my pleasure to introduce the Honorable Gene 
Dodaro, the Comptroller General of the United States, who today 
is joined by quite an entourage of experts from the General 
Accountability Office. And I understand that many of them will 
be providing detailed information, so I would ask both 
Comptroller General Dodaro and those who may provide 
information to stand and take the oath. Please raise all of 
your right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    Mr. Dodaro, since you are the only one that will be 
formally doing an opening statement, you may take such time as 
you may need, but your entire opening statement will be placed 
in the record. You are recognized.

                       WITNESS STATEMENT

                  STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good 
afternoon to you, Ranking Member Cummings, Congressman Mica, 
Congressman DesJarlais. I appreciate the opportunity to be here 
today to discuss GAO's 2014 report.
    In this report, we identify 26 new areas, in addition to 
the 162 areas we identified before. Eleven of the areas deal 
with overlap fragmentation and potential duplication in the 
Federal Government. Half of those 11 areas deal with the 
Department of Defense. One example I would provide today has to 
do with systems to control their satellite operations. What we 
found is that they are using more dedicated systems rather than 
shared systems over a period of time, in the last several years 
in particular during the last decade, which means that there 
are fragmented systems and potentially duplicative.
    So they have one system for one satellite, as opposed to 
having one ground base system that would save hardware, 
software, and personnel costs that could service many 
satellites. We think implementation of our recommendations in 
this area could save millions, if not hundreds of millions of 
dollars.
    We also found duplication and overlap in special payments 
that are made for unemployment insurance and disability 
insurance. Those programs are meant to operate separately, but 
there is a potential loophole where we found that people can 
receive both benefits at the same time. In effect, the Federal 
Government is replacing lost income from these individuals 
twice, not just once, as intended. CBO has said that enactment 
of a legislation to close this loophole could save $1.2 billion 
over a 10-year period of time.
    We also found 15 other areas where there are opportunities 
for cost savings. One example I would cite is the alternative 
Technology Vehicle Manufacturing Loan Program. We found that 
there is $4.2 billion in already appropriated credit subsidy 
costs that are available, but the Department of Energy has not 
demonstrated a need for that money and we recommended that, 
unless they do, Congress could rescind all or a portion of the 
$4.2 billion. There is really not a lot of active applications 
for loans under that program currently.
    We also found that there are opportunities to collect 
amounts of delinquent taxes, for example, in not issuing 
passports to people who have delinquent taxes that are owed to 
the Federal Government. Right now, you can collect child 
support payment that way, but you can't prevent somebody from 
getting a passport. CBO estimates that if a provision is passed 
to allow the State Department to withhold passports from people 
who owe delinquent taxes, the Federal Government could receive 
about $500 million in a five-year period of time.
    Also, there is the ability to potentially offset payments 
of delinquent taxes to Medicaid providers. Right now that is 
able to be done for Medicare, but not for Medicaid. Additional 
revenues could accrue to the Federal Government as a result of 
that.
    Now, in addition to identifying new areas, we tracked the 
162 areas that we recommended previously, and they had over 380 
specific actions that needed to be taken. If I draw your 
attention to the chart that we have here, the dark blue on the 
bottom shows the increase in the amount of areas that have been 
addressed over time. So roughly, of the over 380 actions that 
have been recommended by us, about a third have been 
implemented. The partially implemented are another 44 percent, 
and about 19 percent haven't been addressed at all either by 
the Executive Branch or the Congress.
    Now, the areas that have been addressed, as you mentioned, 
Mr. Chairman, we can score the savings that occur after the 
fact. The areas that have been addressed, over $10 billion has 
already been saved to the Federal Government because of actions 
by the Congress and by the Executive Branch, and those actions 
will also result in the future of about another $60 billion in 
savings over a period of time. And some of these areas, Mr. 
Chairman, as you mentioned, were used to help offset the 
sequester last year so that we were able to take targeted 
reductions without disrupting services to the public 
unnecessarily.
    So there has been action on many of the recommendations. 
Billions of dollars is being saved, will be saved, but there is 
a lot yet still on the table to be dealt with that could lead 
to a lot more savings and more efficient and effective 
operations for the American taxpayer. So we are dedicated to 
continuing to follow up on these areas, Mr. Chairman, and we 
thank you very much for the opportunity to be here today.
    [Prepared statement of Mr. Dodaro follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Issa. Thank you. First of all, I want to thank you 
for this initiative. This really is making a difference. I 
would note, if you would put that slide back up, that the 
partially addressed, I note that some of that is moved out of 
committee; some of that is the Executive Branch has partially 
done something; some of it is that it moved out of one House, 
but not the other.
    When I look at the cross-tabs, I am very disappointed in 
the work we have done in the Congress; we have a strong 
tendency to have half done it in the Congress. And that sort of 
brings up a real point here, which is in order to assert these 
things, do you believe that we should begin moving packages of 
reforms out of the Congress, bundling, if you will, some of 
these duplications so as to make them bigger? Because many of 
the partially addressed are very minute and they are just not 
being picked up in one House or the other.
    Mr. Dodaro. I think that is a very viable option, Mr. 
Chairman. I would note there have been separate bills 
introduced along the lines of what you are talking about, for 
example, to close this loophole between disability and the 
unemployment benefits being able to be received at the same 
time. There are other parts of the recommendations that we made 
where there has been bills introduced and even the President 
has supported them in his budget submission.
    So there is broad agreement. I think packaging them 
together as you suggest is a really good idea, and that is what 
in effect happened with the two-year budget deal. A number of 
these things were packaged. Some of them were recommendations 
from this report, for example, to increase the airport fees. 
That helped offset the need to have the sequester and avoid the 
broad-based, across-the-board cuts. So I am very supportive of 
what you suggest and whatever we can do to work with the 
Congress we would be happy to do so.
    Chairman Issa. Well, perhaps the most important thing you 
can do is, once we work together to put together some packages, 
one, be willing to meet with each of the committees of 
jurisdiction, because as we package them they tend to go 
through more committees before they go to the floor; and, 
secondly, quite frankly, I need you to aggressively work with 
the CBO, because often what we believe is a savings is very 
hard to score, and the other day there was a vote on dynamic 
scoring, which, of course, does give the opportunity to assume 
more of this will actually occur rather than, as the CBO often 
does with these, we pass it, but unless it closes it on day 
one, it assumes that these legacy duplications will continue to 
occur. So that is sort of an inside baseball, but since we are 
all in the Leg Branch, hopefully we can do that.
    What would you say is the greatest growth area in 
duplication in this year? You obviously have ones that are 
recurring, ones that are legacy. But what concerns you the most 
as far as duplication growth in Government?
    Mr. Dodaro. I think the areas, now that we have covered 
quite a bit of programs, is in the Defense area still. There is 
a lot of duplication. The services have their own health 
systems. We point out another one this year that we identified 
in the Army material command of duplicative information systems 
that are costing millions of dollars to maintain. I mentioned 
the satellite control operations. We had one about the 
potential to streamline ground control operations for 
satellites and electronic warfare. And the list goes on with 
the Defense Department and I think it is particularly important 
in that area. So I would say that is the area that we continue 
to identify the most opportunities, and it is reflected in our 
report this year.
    Chairman Issa. I want to thank you. Of course, we don't 
have specific jurisdiction over what the Armed Services 
Committee has, but it is interesting that when you do something 
like the Joint Strike Fighter, what it means is that multiple 
branches get together and agree to have a common different 
aircraft.
    The ranking member mentioned Congresswoman Duckworth's 
proposal on uniformity of uniforms. Do you want to give us an 
update on how you view that? Because it certainly has not 
occurred. And if you are familiar with it, also comment on the 
large amount of civilian contractors who also get uniforms 
provided, but we essentially pay for a myriad of different 
uniforms there.
    Mr. Dodaro. Yes. We are pleased with the actions that have 
been taken by the Department of Defense and by the Congress, as 
Congressman Cummings mentioned in the National Defense 
Authorization Act, to require it. DOD, their requirements would 
not only eliminate the duplication, but, as I mentioned last 
year, provide equivalent level of protection to our armed 
forces, which is more important than the money, even, in many 
respects.
    Chairman Issa. You mean distinctive and invisible is an 
oxymoron? Distinctive, but invisible, as they often try to say 
the digital pattern somehow can all be seen easily, but not in 
fact be seen by the enemy?
    Mr. Dodaro. In any sport, everybody on the same team ought 
to have the same uniform, and in this case this will ensure 
that that happens, and it will ensure that it happens very 
efficiently, as well, with the changes in the Defense 
Authorization bill.
    Now, one thing that we have learned over the years as it 
relates to the Department is to make sure they effectively 
implement these new provisions. And they have said that they 
will, so we will be following up. I also would note that the 
Army canceled its effort to develop its own uniform, which is 
about, I believe, about $4 billion that would be potentially 
saved, depending upon what their future actions would be.
    Chairman Issa. Thank you.
    As I recognize the ranking member, I think back to when I 
was a young lieutenant and I wondered if the most valuable 
asset we would have in a combat was our forward air controller. 
And if he had a specific uniform that was easy for the snipers 
to pick out, whether I was safer as a result, but our mission 
was less safe. So I join with you in realizing that uniform in 
a combat situation should be as indistinguishable by the enemy 
as possible.
    I recognize the ranking member.
    Mr. Cummings. Mr. Dodaro, the report released today 
identified the management of Federal information technology 
investments as an area of potential cost savings. GAO estimates 
that the Federal Government could save $5.8 billion by fully 
implementing the Administration's PortfolioStat. PortfolioStat 
was initiated by the Office of Management in 2012 to help 
agencies make better decisions about their IT investments. Can 
you explain how PortfolioStat helps agencies reduce wasteful 
spending?
    Mr. Dodaro. Yes. It provides a lot more information about 
the entire range of IT investments that are in the system, as 
opposed to the dashboard effort which focuses on individual 
major high-risk systems. Joel Willemssen is in charge of our IT 
practice; he can elaborate, Mr. Cummings.
    Mr. Willemssen. Thank you, Ranking Member Cummings. It 
really is an initiative to look at commodity IT within the 
agencies. Commodity IT not necessarily being those mission-
critical systems, but systems like enterprise IT systems, 
whether it be email or IT security; IT infrastructure, 
mainframes, desktop systems; and then business systems, 
financial management, human resources; and looking at them 
across the department, identifying where those kinds of systems 
are siloed, and then putting together plans to consolidate them 
and gain efficiencies, and with those efficiencies billions in 
savings.
    Mr. Cummings. Well, GAO reports that OMB's original cost 
savings estimates for PortfolioStat were significantly lower 
than they should have been because data from the Department of 
Defense and Department of Justice was not included in OMB's 
estimate. Specifically, OMB estimated a potential cost savings 
of $2.53 billion, while GAO estimates that the program could 
save nearly $6 billion through fiscal year 2015.
    GAO reports that the reason DOD and DOJ were left out of 
OMB's estimate was because those agencies did not report their 
plans in the template that OMB was using to compile its overall 
estimate. Do you know why DOD and DOJ failed to properly report 
their data?
    Mr. Willemssen. OMB went with, at the time, what it had 
without fully checking the reliability of the data. 
Accordingly, we have recommendations outstanding to both OMB 
and to the agencies to examine the reports before publicly 
disclosing them and disclose with that public release any data 
limitations that are present so that, for example, in the 
situation you mentioned, where DOD and DOJ were excluded, let's 
identify those exclusions so that we know what the total 
potential savings would be.
    Mr. Cummings. So did OMB provide a reason for why it didn't 
require DOD and DOJ to report their estimated cost savings 
before OMB publicly disclosed the overall?
    Mr. Willemssen. We identified the deficiency for them, so 
we did not really ask the question; we wanted to move forward 
and say let's make sure this doesn't happen again pursuant to 
the recommendation. You have to check the report and disclose 
any limitations in the data.
    Mr. Cummings. The GAO reported in November 2013 that OMB 
officials had not yet decided what information from the 
PortfolioStat process would be made public. GAO's report 
stated, ``Until OMB publicly reports data, agencies submit on 
their commodity IT consolidation efforts, including planned and 
actual cost savings, it will be more difficult for 
stakeholders, including Congress and the public, to monitor 
agencies' process and hold them accountable for reducing 
duplication and achieving cost savings.'' GAO recommended that 
OMB improve the transparency and accountability of 
PortfolioStat. Specifically, the GAO recommended that OMB 
publicly disclose planned and actual data consolidation efforts 
and cost savings for each agency.
    What is the status of OMB's implementation of GAO's 
recommendation for greater transparency in the PortfolioStat 
process?
    Mr. Willemssen. They have not yet implemented that 
recommendation. We continue to push OMB on it. We point to the 
dashboard as an excellent example of the value of transparency 
of identifying investments that are at risk and actions being 
taken to either terminate those investments or turn them 
around. Similar action could be taken with PortfolioStat in 
identifying the savings. Most importantly, one of our concerns 
is following through on the savings opportunities. It is one 
thing to estimate the savings; it is quite another to actually 
realize them. One of our concerns is making sure the pressure 
is sustained on that implementation. It is one reason we are 
very supportive of your FITARA Act, because irrespective of 
what efforts on the implementation side may wane in the 
Executive Branch, you would have legislation on your side to 
ensure that those efforts would still go forward.
    Mr. Cummings. Thank you.
    Chairman Issa. I thank the gentleman.
    We now recognize the gentleman from Florida, Mr. Mica.
    Mr. Mica. Thank you.
    Mr. Dodaro, welcome back. A couple of questions. One of the 
things I found in the report that we have is I guess we started 
this about four years ago, these reports, and there have been 
over 300 recommendations. I think you just added 26 or 
something like that, new ones. But only about 20 percent of 
them have been implemented. There is about 50 percent something 
has been done. That seems like a small number implemented, 
don't you agree?
    Mr. Dodaro. I definitely agree more should have been done 
by this point in time. I am hopeful that it will----
    Mr. Mica. It is hard to get them moving. Refresh me, if you 
can, on the process. Now, you are reporting to us. You also 
report to each agency the findings.
    Mr. Dodaro. Yes.
    Mr. Mica. And then what is the follow-up?
    Mr. Dodaro. Every year we follow up on actions that the 
Executive Branch has taken on our recommendations, and with the 
Congress where we have recommended statutory changes.
    You know, Mr. Chairman and ranking member, it might be a 
good idea if we looked at--we know how much can be saved, and 
there is very little of this implemented. It might be 
interesting to put an act in that gave them more power that the 
amount would be subtracted some way from their budget or 
something, that we take some automatic action.
    Right now, as you go plead with them, do you present this 
to the authorizers and the Appropriations Committee?
    Mr. Dodaro. Yes.
    Mr. Mica. You do? Okay. And they may or may not institute 
it through legislative means. But it doesn't seem like you have 
a hammer to get it done, and I think we need to put some of 
those savings, or there be some penalty on the agency; some 
motivation, light a fire under their fanny. It is a highly 
technical term, but something to get them to move on this.
    I was stunned to see we are up to $84 billion in IT in your 
report.
    Mr. Dodaro. Yes.
    Mr. Mica. I thought the last figure I saw was $64 billion. 
The last estimate I had, if we consolidate, every time I get a 
report they find more data centers. I think they started out 
with 2,000; we are 6,000, or I don't know what the latest 
number. But they estimated at one of the hearings that about 
half of the amount, that was $64 billion, now I don't know if 
it is the same for the $84 billion, is wasted or could be 
saved. Is that still an actual assumption? Are we in the same 
neighborhood?
    Mr. Willemssen. I probably would state that----
    Mr. Mica. That is a year, right? Annual?
    Mr. Willemssen. It is about $80 billion a year reported, 
but, as we testified last year, that is an understated figure.
    Mr. Mica. It is huge. Also the same thing; everybody wants 
their own to get them to consolidate. It is just a bear to try 
to get them to do that.
    I just was thinking, too, now, me and Obama aren't on the 
best terms, but he has said he doesn't have to consider 
Congress; he has his mighty pen and he does executive orders. I 
just got a release; he just did two today. Has he done any of 
these by executive order?
    Mr. Dodaro. I don't know if it is by executive order. Some 
of the actions have been taken by the Executive Branch.
    Mr. Mica. Well, it might be something. But do you give a 
copy to the White House, too?
    Mr. Dodaro. Oh, sure. Sure. And we make these all available 
to OMB. Actually, OMB put a guidance out that all the agencies 
are supposed to tell OMB what they are doing to address GAO's 
recommendations in these reports.
    Mr. Mica. Okay, a couple things. You know my report, The 
Federal Government Must Stop Sitting on its Assets, we produced 
some years ago, and in that I list a lot of real property or 
vacant property that sits vital. Over the past two years I have 
asked the Office of Budget and Management for access to the 
Federal real property database so we can analyze and evaluate 
how efficiently GSA is using facilities. So far I have received 
no cooperation.
    Has GAO been granted access to the database?
    Mr. Dodaro. We have looked at the database. We found----
    Mr. Mica. Yes, but we found data in, and if it is garbage 
in, it is garbage out.
    Mr. Dodaro. Right.
    Mr. Mica. We found that the information they give--they 
didn't have an inventory of the buildings or properties. Then 
when we looked at some of the properties, some of the 
properties were derelict, defunct, or even taken off the rolls. 
You find the same things?
    Mr. Dodaro. Yes, we found a lot of inaccuracies with the 
database.
    Mr. Mica. Billions of dollars in that area. We just had the 
post office in here. God forbid they should be doing expedited 
disposal of their billions of dollars worth of property.
    Well, you do have information, then, from the database. We 
don't have that; I have asked for it. And you found the same 
thing, that the information we have from that is not accurate. 
I see a lady. What is her name, raising her hand? I might want 
to call on her.
    Identify yourself for the mob here, please.
    Ms. Siggerud. Kate Siggerud.
    Mr. Mica. Can you testify to that fact? Give me your name 
again; I didn't catch it.
    Ms. Siggerud. Kate Siggerud.
    Mr. Mica. Okay. We may want to follow up with you.
    Ms. Siggerud. There we go. That helps, doesn't it? Kate 
Siggerud. That is much better.
    Yes. In fact, we did a report focused specifically on the 
quality of the data in that database in 2012, I believe it was; 
made a number of recommendations, and we would be happy to 
provide some information for the record on what has been 
implemented.
    Mr. Mica. I will have a staffer follow up with you. 
Appreciate that.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from New York.
    Mrs. Maloney. Welcome. Nice to see you. How much do we 
spend in Federal contracts? I think two years ago it was $435 
billion. What is the number for this year in Federal contracts?
    Mr. Dodaro. Paul Francis is in charge of all our 
acquisition work across Government. You are in the ballpark. 
Paul?
    Mr. Francis. Yes. It has come down. It was over $500 
billion. I think in the last year it is just under 500.
    Mrs. Maloney. Last year. So now it is a little over $500 
billion?
    Mr. Francis. Little under.
    Mrs. Maloney. Under $500 billion.
    Mr. Francis. Yes.
    Mrs. Maloney. Okay. And that is purchasing things. What 
about the contracts we have with the military and Defense and 
everything, the people who help us in Afghanistan, independent 
contractors, are they part of that $500 billion?
    Mr. Francis. Yes. Department of Defense has about two-
thirds of that, so think about $300 billion in rough figures 
for Department of Defense and the rest for the civilian 
agencies.
    Mrs. Maloney. Well, I just came from a bill signing at the 
White House. Today is Equal Pay Day, and there will be a vote 
on equal pay bill in the Senate tomorrow, and the President 
signed two, really, contract bills, one that makes it against 
the law for Federal contractors to retaliate against employees 
if they tell another employee what their pay is. Did you know 
that that was the law now, that if you told someone your pay, 
you would be fired? You didn't know that? But that is the law 
now. So that would change that.
    The other would call upon the contractors, the $500 billion 
contractors to put together an assessment of what people are 
paid in like jobs to see if there is pay discrimination.
    Are you supportive of those two initiatives?
    Mr. Dodaro. We haven't really looked at them, but----
    Mrs. Maloney. It is an Executive Order, so it is already in 
effect.
    If you were a czar here and you could come out with the top 
three things that you would do to make Government more 
efficient based on the report that you just did, what would 
they be? And what would the savings be for the number one, 
number two, number three?
    Mr. Dodaro. Well, first of all, I think one thing that 
needs to be done, the chairman alluded to it before, is passage 
of the DATA Act. I think the DATA Act is one of the biggest 
single things that could be done in order to provide more 
transparency on the costs of these program activities. So that 
being said----
    Mrs. Maloney. Exactly what would the DATA Act do?
    Mr. Dodaro. It would standardize the data so you would be 
able to compare data across agencies, which you can't do right 
now. It would also provide more consistent information and at a 
lower program spending level that we found to be a big obstacle 
in us identifying additional savings opportunities.
    Mrs. Maloney. There are a number of things that I mentioned 
earlier that could save billions of dollars. One is to try to 
collect unpaid Federal taxes. These are taxes that are already 
due to the Federal Government, and to potentially not issue 
passports to people who have delinquent taxes; not pay Medicaid 
providers who aren't paying their taxes. There are 
recommendations that we have had in order----
    Mrs. Maloney. We pass bills all the time saying that you 
cannot give a Federal contract to anyone who hasn't paid their 
taxes. I think it was the chairman's bill; it was one of the 
bills coming out of this committee. So right now the law is you 
can't give a contract to someone who doesn't pay their taxes. 
In other words, they get the contract, then they don't pay 
their taxes?
    Mr. Dodaro. Well, what happens is right now Medicaid is 
considered to be a State payment, not a Federal payment, so 
Congress has to pass a law to say that that particular area 
gets dealt with. That happens for Medicare providers, but not 
for Medicaid providers, even though the Federal Government is 
underwriting most of the Medicaid costs to the programs. Of 
course, the other areas is passports.
    We have also recommended equalizing taxes on different 
forms of tobacco. That is about almost a billion dollars a year 
that could be gained in that area. We have mentioned two or $3 
billion that CBO has already estimated on Social Security 
offsets. These are areas where the State and local government 
employees don't necessarily pay into the Social Security system 
unless the IRS reports the Social Security Administration these 
earnings that aren't to be covered aren't considered, so the 
CBO estimates it could be two to $3 billion a year in providing 
additional savings in those areas.
    So we have a lot--and none of those areas involve any cuts 
in services to anybody; they are all dealing with gaining 
revenues. We have a whole collection of recommendations on fees 
and immigration, agricultural quarantine, and other things that 
should be more appropriately covering----
    Mrs. Maloney. On immigration, people pay the fees when they 
come in, so how do you have a collection----
    Mr. Dodaro. Well, the fees aren't enough to cover the costs 
the way they are supposed to, so we say they ought to better 
match the fees. Right now appropriated funds are being used, 
when fees should be raised in order to do that.
    Mrs. Maloney. What is the worst agency in terms of 
management?
    Mr. Dodaro. Well, in our reports we have recommended 
changes in virtually every major Federal agency across the 
Federal Government, so everybody has issues that need to be 
dealt with. I mentioned earlier that the Department of Defense 
has a number of areas in fragmentation overlap and duplication.
    Mrs. Maloney. Well, thank you. My time is up.
    Chairman Issa. I thank the gentlelady and I thank the 
ranking member for pointing out executive order signing is not, 
in fact, a law signing.
    With that, we go to the gentleman from Tennessee, Mr. 
DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Welcome back, Mr. Dodaro. I know the answer to the 
question, but for the record please tell us how much taxpayer 
money we could save if we were able to implement every one of 
GAO's recommendations today.
    Mr. Dodaro. Tens of billions of dollars.
    Mr. DesJarlais. And you mentioned earlier the importance of 
the DATA Act. How, over time, would that improve the reporting 
standards and improve the quality and accuracy of claims?
    Mr. Dodaro. Well, right now you don't really have data 
standards at all, and that Act would place responsibility with 
the Treasury Department so they could consolidate and develop 
data standards that would require them to work with 
stakeholders both within and outside of the Government; would 
also establish a pilot that would require recipient reporting 
models to be developed so the Government could get more 
accurate reporting as it did in the Recovery Act. So it would 
be a major step forward.
    Mr. DesJarlais. While it is vital that we advance the DATA 
Act in order to strengthen spending information, implementation 
is certain to face some of the same challenges as the GPRA 
Modernization Act and other good Government reforms. What can 
we do to avoid the same pitfalls?
    Mr. Dodaro. I think effective oversight by the Congress is 
absolutely essential. I think there ought to be more oversight 
and it ought to be focused more on how these acts could be 
implemented properly and consistently and diligently across the 
Government. We find continual problems in this regard. One area 
in the GPRA area that we pointed out is there is not enough 
effective consultation with the Congress and, as a result, 
there is not enough agreement on how to measure programs and 
activities.
    All the tools are in place now in many areas, and if you 
get the DATA Act in place and a couple other things, you will 
have all the information. It is just a matter of basically 
rolling up your sleeves and working hard to implement these 
things properly.
    Mr. DesJarlais. Can you discuss the status of any ongoing 
work GAO has with OMB or other Federal agencies to develop a 
comprehensive, well-defined, uniform list of all Federal 
programs?
    Mr. Dodaro. Yes. This is another area where the GPRA 
Modernization Act of 2010 required OMB to publish an inventory 
of all Federal programs. We have ongoing work looking at the 
inventory. It is really not helpful in identifying and 
comparing programs across Government. OMB gave the agencies a 
lot of flexibility in how to define the inventory, so some 
defined them on budgetary accounts, others on outcomes or 
different types of bases, so it is really not comparable right 
now; it only includes the 24 major departments and agencies, it 
doesn't include the rest of the Federal Government. So both of 
those areas need to be addressed. So we really do not yet have 
a complete comparable inventory of Federal programs across the 
Federal Government.
    Mr. DesJarlais. What is a reasonable time frame to expect 
getting a complete list?
    Mr. Dodaro. It should be able to be done soon, within a 
year.
    Mr. DesJarlais. How do we achieve that?
    Mr. Dodaro. I think you have to put pressure on OMB and the 
agencies to develop that information. I mean, basically they 
are getting the money to run these programs; they ought to be 
able to provide a comprehensive inventory.
    Mr. DesJarlais. GAO's work shows that building ownership is 
often more cost-effective in Federal Government than leasing. 
However, GSA continues to rely heavily on costly operating 
leases to meet the long-term needs. At the same time, GSA's 
current capital planning lacks transparency and makes it 
difficult to estimate long-term needs, prioritize projects, and 
evaluate alternatives to leasing, thereby inhibiting informed 
decision-making.
    In your report, GAO identifies millions of dollars worth of 
potential savings if GSA were to improve its capital planning. 
Can you elaborate on the recommendations GAO makes to that 
effect?
    Mr. Dodaro. Yes. First, the GSA has to provide lease 
prospectuses to the Congress on high-value leases. Now, while 
the high-value leases last year was, I think, $2.79 million a 
year on these leases, they aren't including a lot of 
information about alternatives. We looked at 218 operating 
leases. In 191 cases they didn't have information about 
alternatives that could be made in order to save money for the 
Federal Government either by buying the property, as opposed to 
leasing it. So a lot of the information isn't available and 
transparent to the Congress to be able to do this.
    These high-value leases, while they are only 3 percent of 
the individual leases, account for one-third of all the lease 
costs to the Federal Government, so we recommended that they 
start including alternative analysis in these prospectuses to 
provide to the Congress so that you can begin quantifying how 
much would be saved by purchasing the property rather than 
leasing property. We found where the Federal Government is 
leasing some property for 40 years and also putting in 
substantial amounts of money into providing security upgrades, 
which we will never be able to recoup during the period of 
time.
    For the operating leases prospectuses that had information 
in them about alternatives, there were, I believe, hundreds of 
millions of dollars that could have been saved had the 
alternatives been used other than leasing.
    Mr. DesJarlais. Okay, I see we are out of time. Thank you.
    Chairman Issa. I thank the gentleman.
    We now go to the gentlelady from New Mexico, Ms. Grisham.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and thank you 
for having this hearing.
    And thank you, Mr. Dodaro. I really appreciate it. I think 
there is lots of work to do to make not only better and 
productive decisions that are sustainable to make sure these 
programs are effective and not redundant and not wasteful, but 
also making sure that they are really focusing on efficacy and 
either making decisions about keeping that program, if it is a 
priority, and fixing it and being clear about that and 
accountable, or eliminating that program and moving to 
something else that might meet that priority. And I want to 
talk about one of those programs.
    New Mexico has one of the highest foreclosure rates still 
in the Country. In 2010, during the height of the crisis, one 
out of every 46 homes was going through a foreclosure process 
in Albuquerque. There are thousands of homeowners in New Mexico 
who tried to receive help from the Federal Housing 
Administration's Home Affordable Modification Program, or HAMP, 
and actually, before coming to Congress, I helped folks in a 
prior life to navigate it, and I found it to be the most 
confusing, difficult, ineffective effort of any program I have 
ever been associated with and was quite disappointed, and still 
am.
    You find in your report that the Federal Housing 
Administration has failed to collect adequately and analyze any 
performance data of its foreclosure mitigation programs, 
including HAMP. Am I correct in that?
    Mr. Dodaro. Yes.
    Ms. Lujan Grisham. So the Federal Housing Administration 
has not conducted any analyses on the effectiveness of their 
foreclosure mitigation programs, the same programs that are, 
frankly, the only lifeline that my constituents went through to 
find help and stay in their homes. And I might add that very 
few of them, and, unfortunately, because we don't have the 
data, it is anecdotal, it doesn't appear that it has helped 
many New Mexicans. Do you have any information that would 
provide me a little better sense about whether HAMP was helpful 
or not?
    Mr. Dodaro. Yes. I am going to ask Orice Williams Brown, 
who is in charge of our work in that area, to respond. I would 
note, though, we also found problems at VA and Agriculture, as 
well.
    Ms. Williams Brown. Let me start with the report that you 
are referring to actually spent much of its focus on FHA. In 
terms of Treasury and the HAMP program, they actually did a 
little better job in terms of collecting information. That 
said, we have chronicled for the last five years all of the 
problems associated with the HAMP program, and there are a 
number of them that we identified with how the program was 
rolled out overall and the extent to which it has actually 
helped homeowners.
    In terms of FHA and its efforts to deal with foreclosures, 
we found that FHA needs to do a better job collecting 
information, because if you look at the data and you look at 
cases of re-defaults, it is important for agencies to look at 
efforts that they have taken to address foreclosures and to 
drill into the data to find out which approaches work and which 
approaches have been less effective, rather than just 
continuing to take action; and we actually found, with FHA, 
that if they focus on reducing the payment by a significant 
amount, we found that about 30 to 49 percent tended to be the 
sweet spot in terms of having a lower re-default rate.
    Ms. Lujan Grisham. And I appreciate that, but you raise a 
very important point. Five years of collecting data, and that 
is five years where people are not, arguably, getting the 
assistance that they need by that program. And I can tell you 
that in my State it is a significant issue, and I get as many 
complaints about HAMP and the other mitigation programs as I do 
about dealing with the lending institutions and the loan 
servicers and the attorneys. They are not distinguished.
    What I really want is an effective program that meets the 
needs of the constituents, but do you also believe that getting 
this data and having an effective program would save the 
Federal Government money if we were administering that program 
more effectively?
    Ms. Williams Brown. We found with FHA that, yes, that would 
be the case.
    Ms. Lujan Grisham. And you have actually answered my last 
question, which is the lack of this program evaluation and 
performance data, that it is a common problem among programs 
and agencies that the GAO analyzes.
    Mr. Dodaro. Definitely. Definitely. I mean, this is one 
area where I think effective congressional oversight would be 
enormously helpful.
    Ms. Lujan Grisham. And I am about out of time, but, Mr. 
Chairman and for the folks testifying today, it would also, I 
think, mitigate tons of consumer fraud in the interim that is 
now certainly pervasive in my State, because folks have no idea 
what is a credible program, who is doing what, how you get 
through. The response times are slow. It is an arduous process 
at best, and it is probably good that I am out of time to give 
you other examples and adjectives about how I feel.
    Thank you, Mr. Chairman.
    Chairman Issa. You know, you sound like a Republican 
complaining about Government bureaucracy. You better be 
careful.
    Ms. Lujan Grisham. I think a little bipartisan work, Mr. 
Chairman, on these issues would be a very good thing.
    Chairman Issa. I certainly agree.
    We now go to the gentleman from Michigan, Mr. Bentivolio.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Good to see you again, Mr. Comptroller.
    Mr. Dodaro. Good to see you.
    Mr. Bentivolio. More than 83,000 persons remain missing 
from past conflicts in World War II, Korea, Vietnam, the Cold 
War, and Persian Gulf.
    Can we show the first slide, please?
    [Slide.]
    Mr. Bentivolio. As you can see, the missing persons are 
spread over every continent and under any command.
    Please show slide two. Thank you.
    [Slide.
    Mr. Bentivolio. Understandably, this is a complex mission 
involving many offices. As you can see from this slide, the 
missing persons accounting community consists of 11 offices in 
8 organizations that report through different lines of 
authority. Is the accounting community too fragmented? How do 
the soldiers and civil servants working in those offices feel 
about the lack of a single chain of command?
    Mr. Dodaro. I think that everyone wanted greater clarity 
that we had talked with, and we pointed this area out. 
Fortunately, Secretary of Defense Hagel just recently, within 
the last week or so, announced that a new organization to have 
a more unified command over these issues which would simplify 
things. So we are hopeful and will be watching how this is 
implemented to see if it will correct this problem. We found it 
was very disjointed; it wasn't operating very effectively; it 
really wasn't accomplishing as much as it should have in order 
to locate the remains of these prisoners of wars and missing 
persons of action. So I don't think it was providing effective 
service to them, and hopefully this new organization will make 
a change.
    Mr. Bentivolio. Can we have slide 3, please?
    [Slide.]
    Mr. Bentivolio. As you can see, on average only 72 persons 
are identified each year; no more than 100 missing persons have 
been identified in a single year. In 2009, the deputy secretary 
of defense directed the accounting community to build the 
capability to identify 200 persons a year.
    How is the fragmentation within the accounting community 
hindering progress towards this goal?
    Mr. Dodaro. I would like to ask Cathy Berrick, who is head 
of our Defense Capabilities and Management team, to answer.
    Ms. Berrick. Thank you for the question. This is actually 
an open issue. Although, as Gene mentioned, the Department of 
Defense recently announced the reorganization to streamline the 
eight organizations within DOD that manage this function, DOD 
still has to put forth a strategy to meet a new congressional 
goal to identify 200 missing persons a year by the year 2015. 
As you mentioned, right now they are identifying about 72 to 74 
missing persons a year, so they have quite a bit of work to do.
    As a result of the fragmentation in these organizations 
within DOD and not having a clear line of authority, we had two 
different offices develop two separate plans on how they were 
going to achieve that goal and there was a lot of conflicting 
information in those. So we hope that with this reorganization 
these entities can now work together to come up with a plan to 
achieve that goal of identifying 200 persons per year.
    Mr. Bentivolio. You answered my next question. I appreciate 
that.
    Can we put up slide 4? Slide 4, please.
    [Slide.]
    Mr. Bentivolio. As you can see, it is clear that the 
accounting community is not lacking for Federal funding. From 
2008 to 2012, the accounting community obligations increased 
from $76 million to $132 million. DOD has also indicated that 
additional funds will be reprogrammed towards this goal.
    With the growth in funding, it is not clear to me that 
additional dollars will improve performance in this important 
mission. What concrete steps is DOD taking to improve the 
culture within the accounting community so that disputes 
between offices don't derail community-wide planning efforts?
    Ms. Berrick. In terms of the funding needed to meet this 
mission, it is really imperative that DOD complete a plan on 
how they are going to achieve the new goal to identify 200 
missing persons per year. Right now they are identifying about 
half of that, so they need to figure out whether they need 
additional resources or other mechanisms to support meeting 
that goal. So in terms of budget I think the next most 
important step is for DOD to complete their plan so that can 
inform decisions about what their budget needs are.
    Mr. Bentivolio. Okay, when you examine each department and 
how they duplicate efforts, reading the briefing, I was 
wondering out of the 83,000, I got the impression there were 
offices working on the same area or same individual that was 
missing. Do you know how they differentiate out of the 83,000 
missing? Do they assign like case files and can anybody access 
those case files within those eight agencies or eight teams?
    Chairman Issa. The gentleman's time has expired, but you 
can answer.
    Ms. Berrick. That is part of the problem. The roles and 
responsibilities for those eight individual offices isn't clear 
so, as a result, we identified overlap in four areas. One is in 
artifact and analysis, another is in research and analysis, 
another area is investigations, and the fourth is in family 
outreach. For example, there are two labs within those eight 
organizations, and just to give you an example of the overlap, 
we identified that one lab had already closed cases, not aware 
that the second lab actually had those in the queue to work. So 
it has resulted in problems like that.
    Chairman Issa. I thank the gentleman.
    Mr. Connolly. Mr. Chairman? Mr. Chairman, can I make an 
inquiry, just an inquiry?
    Chairman Issa. Very quickly.
    Mr. Connolly. We have votes on the floor right now.
    Chairman Issa. Yes, we do. We are coming back.
    Mr. Connolly. So you are going to break.
    Chairman Issa. We are going to break.
    Mr. Connolly. Okay. Thank you.
    Chairman Issa. The gentlelady from Illinois.
    Ms. Kelly. Thank you, Mr. Chair, and thank you for your 
flexibility this morning. I appreciate it.
    The report GAO released today focuses on two specific 
property-related issues leading to Government waste. One of 
those is the Federal Government's use of property leases. GSA 
was appropriated $5.2 billion to provide 193 million square 
feet of rental space to Federal agencies and privately owned 
buildings, is that correct?
    Mr. Dodaro. Yes.
    Ms. Kelly. What specific best practices does GAO recommend 
GSA uses to evaluate whether to lease space or to buy it, since 
there were comments about we could be wasting taxpayers' money?
    Mr. Dodaro. Yes. We recommended that they, first, in 
developing lease prospectus, particularly for high-cost leases, 
do an alternative analysis to say would it be cheaper to buy or 
cheaper to lease; to get more specific information from the 
agencies about how long they are going to need the property to 
be leased over a period of time; and to develop that analysis.
    I would ask Kate Siggerud if she would add anything to 
that.
    Ms. Siggerud. There was one additional recommendation that 
we made in that report, and that was for these high-value 
leases that have existed for a long period of time, to develop 
a ranking or criteria system to move some of those high-cost 
leases into ownership situations, and then present that clearly 
to the Congress so that choices could be made.
    Ms. Kelly. Would an example of that be the Environmental 
Protection Agency in Seattle?
    Ms. Siggerud. We did have that as an example in the report, 
yes.
    Ms. Kelly. GAO's report also focuses on cost savings 
related to real estate owned, or REO, properties owned by the 
Federal Government after foreclosure. A number of agencies own 
these properties, including the Departments of VA, Agriculture, 
and enterprises Fannie Mae and Freddie Mac. GAO, however, 
singled out the Federal Housing Administration as taking the 
most time to dispose of foreclosed properties, about 340 days.
    Mr. Dodaro, that would be nearly $1 billion per year in 
savings from one agency alone, is that correct?
    Mr. Dodaro. Yes. There would be quite a bit of savings in 
that area if they could reduce that size. Ms. Brown will 
explain how that would happen.
    Ms. Williams Brown. Part of the process that made FHA a 
little different has to do when they actually take ownership of 
the property. And in the case of the enterprises and VA, rather 
than waiting to go through the process of redemption and 
actually having a free and clear title, they wait until that 
process is complete before FHA actually takes ownership, and 
that is part of the reason that they have a longer process. But 
they also take longer to actually sell the properties.
    Ms. Kelly. GAO notes that FHA's oversight over the 
contractors is usually maintain and dispose of properties have 
weaknesses. How does GAO recommended that FHA improves its 
oversight of these contractors?
    Ms. Williams Brown. We outlined a series of recommendations 
for FHA to improve their oversight. One of the things that we 
found they were deficient in had to do with actually tracking 
the performance of the contractors for the various properties. 
That is one area that we recommended that FHA focus on, and 
also improve the guidance that they give to their regional 
offices to ensure that the contractors are being consistently 
overseen across the regions.
    Ms. Kelly. Thank you very much.
    I yield back.
    Mr. Lankford. [Presiding.] Thank you.
    Mr. Dodaro, thank you for being here. I am going to get a 
chance to run through some of these quick questions. We are 
about to break for a recess in just a moment. I want to bounce 
a couple questions off before we do in this process.
    You have some serious concerns on the Medicaid 
demonstration projects. We are talking about tens of billions 
of dollars. Can we talk through a little bit about this? The 
demonstration projects have a requirement to be budget-neutral 
to be a demonstration project. Are the demonstration projects 
budget-neutral?
    Mr. Dodaro. We looked at 10 demonstration projects and 
found problems with four that we believe they were not budget-
neutral.
    Mr. Lankford. State-specific for them? Are you talking 
about four specific States or four----
    Mr. Dodaro. Four specific States.
    Mr. Lankford. Okay.
    Mr. Dodaro. In total, we found about $32 billion that was 
being paid to the demonstration projects that we believe was in 
excess of the budget neutrality provision. They were using 
outdated information in some cases, and in some cases they were 
accounting for costs prospectively that the State had never 
retrospectively spent money on.
    Mr. Lankford. Okay, so the State and the Federal Government 
have a partnership in this as far as the funding of that. The 
$32 billion for the four States, is that all the Federal 
portion or is that State and Federal portion combined?
    Mr. Dodaro. That is State and Federal portion combined. I 
think it was about $21 billion was the Federal portion. I will 
correct that, if I am wrong, for the record.
    Mr. Lankford. So is that in a single year or is that over 
multiple years?
    Mr. Dodaro. I believe it is over five years.
    Mr. Lankford. All right, so $21 billion over five years 
that has been spent that does not meet the basic criteria under 
law for being budget-neutral.
    Mr. Dodaro. Well, the budget neutrality is not by law, it 
is by HHS policy. And one of our recommendations is for the 
Congress to require it be done by law and instruct the 
secretary to change their procedures to make sure that it is 
implemented that way.
    Mr. Lankford. Okay. The same issue with the Medicare 
Advantage demonstration program that we have talked about in 
the past. Two and a half years ago $8.3 billion was moved into 
a Medicare Advantage demonstration program. A part of that is 
obviously budget neutrality and also a report to come back to 
show what they are demonstrating. Have you seen a report of 
what they were trying to demonstrate with that Medicare 
Advantage program?
    Mr. Dodaro. Well, we had concerns about whether or not the 
demonstration, the way it was structured, could conceivably 
ever demonstrate what it was intended to demonstrate, and 
basically those years have run out now. We have recommended 
every year that Congress rescind some of the money there that 
would be put in place, but they haven't. The demonstration is 
over now. I don't know if we have looked at the final report or 
not.
    Mr. Lankford. Did they submit a final report of what they 
were trying to demonstrate with that $8.3 billion transfer of 
funds?
    Mr. Dodaro. I don't know, Congressman. I will get an answer 
for you and give it for the record. But our point was the way 
it was structured, with data that occurred beforehand--first of 
all, as I recall, they were giving money to mediocre performing 
plans, and not just high performing plans, and encouraging 
people to improve their performance. So by the structure and 
how it was set up, we believe it would not have been able to 
demonstrate that it was having an effect because so many people 
were already receiving the payment.
    But I will follow up and get you a detailed answer.
    Mr. Lankford. It was not designed to demonstrate anything; 
it was designed to carry over Medicare Advantage passed the 
election, so there wouldn't be serious cuts to Medicare 
Advantage until after the election was over. But that is a 
different issue on it.
    One last thing, then we are going to recess. VA and DOD 
have purchased prescription drugs together in the past to 
provide greater efficiency. Have you seen any kind of trending? 
They have discussed it often again, about trying to get back 
together. That seems to be around $500 million they could save 
a year, just to be able to combine their purchasing power. 
While there has been discussion, is there any movement that you 
have seen towards that?
    Mr. Dodaro. I will get you a specific answer, but last time 
I recall we looked at it they weren't taking full advantage of 
the potential purchasing power of both entities, but I will get 
you a specific update.
    Mr. Lankford. Okay. Thank you very much for being here.
    We are going to recess for a moment because of votes, and 
then the committee will come back in order as soon as the votes 
have completed.
    Mr. Dodaro. Thank you very much, Mr. Chairman.
    Mr. Lankford. We are going to recess.
    [Recess.]
    Chairman Issa. The committee will come to order.
    Mr. Dodaro, we will shortly have other individuals coming 
back, but I thought I would take a moment. I guess you would be 
considered nonpartisan since it is just you and me. The 
Healthcare.gov Web site, in combination with the other parts of 
the Affordable Care Act, some 30-some separate Web sites that 
were done by 30-some separate States at a cost, let me rephrase 
that, a grant of no less than $100 million, and sometimes over 
$300 million apiece. Have you looked into, if you will, the 
cost and duplication involved in that?
    Mr. Dodaro. We have been asked by a number of parties and 
the Congress to look at Healthcare.gov, a lot of aspects of it, 
and also the State Web sites, as you mentioned, Mr. Chairman. 
So we will be looking at those issues both in terms of how they 
were designed and what kind of investment policies, testing 
that they did. And while we haven't been asked to specifically 
look at the potential for overlap and duplication, you raise a 
good point. So I will make sure that we look at that aspect of 
it as we cover this issue. I thank you for raising that.
    Chairman Issa. And I appreciate it. You have a big job in 
looking at all aspects of that and I wanted to make sure that 
we did not look at the Affordable Care Act and Healthcare.gov 
and the other sites as an event that we can do anything about. 
The money is spent; the history is written.
    But legislatively this committee would have the authority 
to prohibit grants if they were redundant. So as you are 
looking at, if you will, this propensity to give everyone a 
little bit of buy-in money, which there were plenty of costs 
that could have been provided in grants, but in this case the 
building of IT, when clearly, once you got to the second State 
and the third State and the fourth State, any level of 
duplication was pure waste.
    And in the case of, for example, Maryland, versus Kentucky, 
versus other States, we also have this odd situation in which 
you have failures and successes in some cases just because they 
didn't know what the other entity was doing.
    So as you look at it, look at it in a mind to a proposed 
legislative fix that would prohibit any future Government in 
any area, not just health care or something as this example, 
from issuing grants that would duplicate in State after State 
without a justification. Sometimes there are justifications, 
but without a specific justification. Because I believe that 
this was well intended, but if anyone had sat down and said you 
are going to spend over $5 billion to produce essentially 
duplicate copies of Web sites that all do the same thing, they 
would have said, my goodness, we can spend three or $4 billion 
of those dollars somewhere else and do better.
    So I would appreciate that.
    I will now, as I said, go to Dr. Gosar for five minutes.
    Mr. Gosar. Thank you, Chairman, and thank you very, very 
much, Mr. Dodaro.
    A couple things, statements. Compared to Fannie and Freddie 
Mac, FHA saw about 4 to 6 percent lower returns on disposition 
of foreclosed properties and took 60 percent longer to dispose 
of those properties, average of 340 days versus 200 days. And 
there are a number of things that Fannie and Freddie do that 
FHA does not do.
    So can you put up slide number 1 for me?
    [Slide]
    Mr. Gosar. FHA real estate owned properties performed 
behind Fannie and Freddie. GAO analysis shows that FHA REO 
properties are 4 to 6 percent behind there. When it takes FHA 
about 60 percent longer to sell an REO property, how does this 
affect FHA's performance to get rid of that property in 
disposition?
    Mr. Dodaro. I will ask Ms. Brown to respond.
    Ms. Williams Brown. It impacts the return on the property, 
so it is the amount of how much they actually spend and then 
actually how much they get back. So it affects their overall 
return on the property.
    Mr. Gosar. Yes, but if we were to follow Fannie and Freddie 
in that same disposition, we could have seen as much as $400 
million in costs incurred, but saved as much $600 million.
    Ms. Williams Brown. Yes.
    Mr. Gosar. Seems like a very good balance line, wouldn't it 
be?
    Ms. Williams Brown. Excuse me?
    Mr. Gosar. It would be a very good balance line?
    Ms. Williams Brown. Yes.
    Mr. Gosar. Yes. How does FHA's disposition process differ 
from the disposition process of the enterprises or the private 
industry?
    Ms. Williams Brown. We found that it differs in a couple of 
areas. One, it differs on the front end when FHA actually takes 
possession of the property and starts the sale process, the 
management and the sale. It also differs in terms of how they 
go about getting their initial sale price on the property. FHA 
tends to go with a single price; the enterprises and VA tend to 
get a number of prices to come up with a sale price.
    They also differ in terms of how they reduce the sales 
price if a property has been on the market for a while. FHA 
takes an approach that they have a price and they will reduce 
the sale price of the property the same, regardless of where 
that property exists in the Country. The enterprises and VA 
will take a different approach, they will actually consider 
market factors in terms of reducing the price of a sales 
property.
    Mr. Gosar. And don't the other entities also look at 
maintaining and changing that out?
    Ms. Williams Brown. Yes.
    Mr. Gosar. And that is a big deal, isn't it?
    Ms. Williams Brown. Yes.
    Mr. Gosar. And what prohibits the FHA from doing that? What 
is one of the prohibitive factors in maintenance and improving 
the lot?
    Ms. Williams Brown. Well, we aren't aware of anything that 
prohibits them from doing that; it is something that we 
recommended that they take a look at in terms of the difference 
in their properties and the others. FHA indicated in their 
comments back to us that they weren't sure that that would 
actually increase their ability if they did a certain minimal 
maintenance.
    Mr. Gosar. Well, I am going to stop you there because we 
have limited time. The GAO's 2013 report, HUD reported the 
compliance with Davis-Bacon, made it difficult to engage in 
projects to make necessary repairs to increase sale returns. 
Fannie and Freddie do not need to comply with Davis-Bacon. So 
there is another aspect, is there not?
    Ms. Williams Brown. Well, there are costs associated with 
it, but when we did our analysis we actually controlled for 
geographic differences in terms of so if you are dealing with a 
different geography and the labor associated with maintaining a 
property in one community versus another. Those were controlled 
for in terms of how the enterprises fared versus FHA.
    Mr. Gosar. Well, then why don't other entities cite that 
barrier? I mean, it sounds if we are recreating the wheel, we 
ought to look at the wheel prior to that, wouldn't we?
    Ms. Williams Brown. Yes.
    Mr. Gosar. I mean, Davis-Bacon is riddled with fraud, 
right?
    Ms. Williams Brown. Well, in that 2013 report we didn't 
drill in on Davis-Bacon.
    Mr. Gosar. Well, maybe we should, because in that GAO 
report it actually showed that the calculations for Davis-Bacon 
were 100 percent fraudulent. A hundred percent.
    Ms. Williams Brown. In the 2013 report?
    Mr. Gosar. 2012, I am sorry.
    Ms. Williams Brown. GAO's 2012 report?
    Mr. Gosar. Absolutely.
    Ms. Williams Brown. Okay.
    Mr. Gosar. I mean, just in your calculation from the 
Department of Wages and Labor and moving it to the Bureau of 
Statistics, GAO hardly likes Davis-Bacon, do they?
    Ms. Williams Brown. This body of work didn't focus on 
Davis-Bacon; it could be another body within GAO.
    Mr. Gosar. I mean, when you start looking at some of the 
implications, particularly on buildings and maintenance of 
buildings, and increasing aperture, this is a barrier, and it 
cites it that this is a barrier; and we ought to be looking at 
this because CBO says that if we just change the calculations, 
we could save between $10 and $25 billion a year just by 
calculating Davis-Bacon properly. And part of the problem with 
utilizing Davis-Bacon is there is no transparency, no one knows 
how it is calculated. So that would make it very easy for us to 
see an increase in sales and looking at the taxpayers' dollars 
a little bit better.
    Mr. Dodaro. We will take a look at that issue.
    Mr. Gosar. Okay.
    I am running out of time, so I will yield back to the 
chair.
    Mr. Collins. [Presiding.] The gentleman yields back.
    The chair now recognizes himself for questions.
    It is always good to have you, Mr. Dodaro. This is the part 
for me, as a freshman, and the meetings that we have. One, I 
love the reports that you have and the reports that are put 
out. We talked about this last year. I am in the military. That 
part on military uniforms is, again, unfathomable in most 
comprehensive reports, especially when you look at it from a 
position of other things that we need. And I think when you 
spend those dollars in certain ways it just presents an issue 
for many of us as we look at this and say why do we have these 
duplication of products; why do we have these services; why are 
these things not being done.
    So in that line I have some things I want to talk to you 
about and some issues that I think maybe from the chairman's 
earlier comments today and many other's earlier comments, how 
do we get to fix this. For my district, we are about fixing 
issues; we are about fixing problems. I did not come to 
Washington to be a spotlight and simply shine a light and say 
here is a problem, there is another problem. I think the way we 
rebuild with the American people is we say here is a problem, 
here is how we fix it; here is a problem, here is how we fix 
it.
    In looking at that, I do have a couple questions for you.
    As I understand it, the GAO started issuing these reports 
in 2011. I want to know how many of these recommendations have 
been fully addressed.
    Mr. Dodaro. Of the over 389 specific actions that we have 
made, 123 have been fully addressed, so it is about a third.
    Mr. Collins. Would that be fully addressed?
    Mr. Dodaro. Yes.
    Mr. Collins. Completely. So from what we are gathering, it 
is about 19 percent.
    Mr. Dodaro. Well, it depends on--there is 162 areas.
    Mr. Collins. Right.
    Mr. Dodaro. If you take the areas, that is about 19 
percent, 20 of the areas. But if you go down to the specific 
actions it is a little bit more.
    Mr. Collins. Well, again, that is completed actions. I know 
there are a lot that have partial actions, other things like 
that, but I am looking at completed, because when you look at 
this, to explain this back home, when you go home and you see 
these or they take the GAO reports, because I have a lot of 
folks in the 9th District of Georgia that look at these 
reports, they see them put out, and they say, well, why can't 
you do this? And we say, well, that is just a little bit. Well, 
it means a lot. This hundred million here, hundred million 
there, that is actually real money in the State of Georgia, 
especially in the 9th District. So they don't understand how we 
can't do this or come together.
    I recall the words of Senator Coburn. He came before this 
committee just a few months ago and he said that he never 
dreamed that the GAO would have published these reports and 
Congress wouldn't embrace all the recommendations. He said that 
he thought that these reports would embarrass Congress into 
action. It is not the GAO's fault; it is Congress's inability 
to address these types of issues.
    And that is the reason that I am going to, in just a few 
days, introduce the Commission on Accountability and Review of 
Federal Agencies, the CARFA, Act. This is not new; we have made 
some changes to it, but we are bringing it back up. This will 
establish a results-orientated bipartisan commission made up of 
seven official members appointed by the President and Congress, 
one each appointed by the Majority and Minority leaderships of 
both Houses and three appointed by the President, as well as 
four non-voting ex officio members, members of Congress, two 
from each House.
    The Commission's charge will be to recommend: one, 
realignment where a function can be performed by two or more 
agencies or programs and can be consolidated; two realignment 
or elimination of any agency or program that has wasted Federal 
funds; and, three, elimination of any agency or program that 
has completed its purpose, become irrelevant, or failed to meet 
its objectives. Any savings that result from the consolidation 
or cancellation of programs will be applied to offset the cost 
of the Commission for deficit reduction.
    The findings and suggestions of this Commission will have 
privileged status before the House and the Senate, and this is 
important, and will be considered in their entirety without 
amendment, which, by forcing Congress to vote up or down on a 
Commission's recommendation, the congressional log-rolling that 
normally protects spending and waste can be circumvented and 
backroom deals become much less effective.
    Farm Bill negotiations over the USDA's duplicative catfish 
inspection program point to this perfectly. In 2012, Senators 
McCain and Kerry offered an amendment to the Farm Bill, which 
was approved by voice vote. The GAO, your organization, 
included this program in its list of duplicative programs in 
its 2013 report. I remember you and I having this discussion 
last year. I couldn't understand. Like I said, you inspect 
catfish at my place, you catch them, you inspect them, you put 
them in the bucket. Okay? There is bigger issues here. I know, 
but we have a protection issue going on.
    In the most recent Farm Bill, there was considerable effort 
by a vast majority of members in Congress to repeal this 
program. Unfortunately, due to the effects of several 
influential members, the program was included in the bill and 
another defeat for Government efficiency. CARFA is designed 
specifically to address issues like this one.
    So not only urging members who are watching now or 
listening to become a cosponsor on this, I would like to talk 
with you just a moment about actually looking at these 
recommendations and how we can work together. Comment on Mr. 
Coburn's discussion when he said that he thought it would 
embarrass us into action. And just on more of a personal level, 
has it surprised you, the lack of inaction on these items?
    Mr. Dodaro. At one level, I have been concerned that there 
hasn't been enough movement of legislation that has been 
introduced. I mean, in many of these areas legislation has been 
introduced and has, in some cases, advanced, but it hasn't been 
passed, even in cases where the President also agrees and has 
submitted it in the budget proposal. So where there is broad 
agreement and legislation has been introduced between certain 
parties and the Congress and the President, yes, I have been 
surprised that there hasn't been quicker action when those 
circumstances present themselves.
    On areas where we have pointed out multiple programs across 
multiple agencies that touch upon many different parts of the 
Executive Branch and various committee jurisdictions, no, I 
haven't been that surprised that there hasn't been fast action 
on those areas.
    So it is kind of mixed depending upon the areas. There are 
a lot of areas I would consider to be very straightforward and 
broad agreement; there, I am perplexed as to why there hasn't 
been more action. But in some of the more entrenched areas 
where there are constituencies and longstanding Federal 
programs and interest groups and others, I am, quite frankly, 
not surprised that more hasn't happened.
    Mr. Collins. Well, I think that is a concern for all of us 
and maybe one of the reasons why we are addressing it, is 
because Congress hasn't acted, and we come with another 
reasons. You hear enough speeches about cut this, cut that. 
That never happens. It sounds more like my excuse for my 
children not cleaning their rooms at this point.
    With that, I will yield to the gentleman from Arizona for 
five minutes.
    Mr. Gosar. I want to continue where I left off.
    In 2002, GAO recommended that HUD establish unified 
property custody as a priority for FHA. Now, more than a decade 
later, FHA still does not have consistent custody over the 
foreclosed properties. Today's report indicates there is still 
bifurcated ownership. What benefits may FHA see if it 
establishes a unified property custody?
    Mr. Dodaro. We think it will lead to quicker action in 
disposing of the properties.
    Mr. Gosar. I think I would agree with you. Why hasn't FHA 
actually taken and implemented this recommendation?
    Mr. Dodaro. You know, Congressman, in preparing for this 
hearing, I asked myself a lot of the same questions. I have 
asked my staff to elevate this issue within the Federal Housing 
Administration and I do plan to follow up, myself, personally 
with the secretary of HUD about why they haven't taken more 
action on these areas. I am, quite frankly, surprised along the 
lines of the previous question.
    Mr. Gosar. Are there any other things that GAO would tell 
FHA that they would help in the implementation?
    Ms. Williams Brown. We have highlighted a number of 
alternative approaches, the one you mentioned being one, and 
FHA, for the first time, has started to begin to look at some 
alternatives to dealing with REO, and we actually think the one 
you mention would be transformative for the program if it were 
to actually look at the whole unified custody approach.
    Mr. Gosar. Gotcha. I am going to now refocus. Being a 
dentist, I am going to go back to defense health care 
contracting.
    The report issued today identifies contracting for the 
Defense health care professionals as an area of fragmentation 
in the Federal Government. The central issue is a lack of 
consolidated agency-wide strategy to contract for health care 
professionals. Can you explain the efforts the Army, Navy, and 
other components within DOD and what they have made to remedy 
the problem of this widespread fragmentation?
    Mr. Dodaro. Yes. I will ask Paul Francis, who is the head 
of our Acquisition Services, to elaborate, but part of the 
problem, Congressman, is that there is not any effort to 
coordinate across the services. And even we find some efforts 
within the individual services to coordinate among themselves, 
within the Army, Air Force, and Navy, and neither of those 
efforts were very effective; and there wasn't any effort across 
the services to do so.
    Paul?
    Mr. Francis. Yes, sir. What we found was in contracting for 
medical health care professionals at DOD's facilities, I think 
there was $1.1 billion in contracting. We found about only 8 
percent of that where two services got together and 
consolidated the requirements. Even when a single service was 
doing the contracting, they would award multiple contracts for 
the same type of people in the same facility.
    And I think the issue is with the Federal Government and 
contracting is if you run your competition and you have a 
pretty good contract, you seem happy. But that is just not good 
enough. So these contracts are competed; they are good 
instruments and so forth, but the Government needs to do more, 
to do like private industry. So you need to be looking for your 
best deals. So while the Army, for example, might have 10 
really good contracts for 10 different things, maybe it should 
have one contract for 10 things.
    Mr. Gosar. Is there a way, from your viewpoint, that we 
could get the military to actually get this taken care of and 
done and actually implement contracting unified across the 
board?
    Mr. Francis. Yes. Now, there are a couple things. There is 
a new Defense health agency that says it is going to take that 
up, but we are still waiting. And there has been a subcontract 
group that is supposed to deal with it as well. But I think 
Congress could create incentives. One would be do something 
with the money. If you think savings are available, maybe you 
could lower the budget by that amount and create an incentive 
for them to consolidate those contracts.
    Mr. Gosar. Part of the problem, even though we have power 
of the purse, is actually trying to get a budget passed. I 
mean, I am a dentist impersonating a politician, and to see 
what goes on in this place is just absolutely ludicrous. So 
maybe a commission, maybe a mixture of retired military as well 
as some business folks. Could a commission like that actually 
have some benefit?
    Mr. Francis. It could, although I would say I don't think 
there is any question about the problem. People agree it is not 
that efficient; it has been studied. And I think people know 
what to do about it. It is the point you made, the actual 
taking of action; that is what is not happening.
    Mr. Dodaro. Congressman, we have recommended in the past 
that there be a chief management official over at the 
Department. In this case, and like many of the cases, the 
people we talk with in the Department agree with us; they just 
can't be organized enough to focus on the implementation of the 
program. So congressional oversight and control of the funds 
within the Department is really the only way to do it. In many 
of these areas there have been commissions in the past and 
studies, and my feeling is that other commissions will have 
marginal effect; that you really need to focus on and hold the 
people in the Department accountable for focusing in on it if 
you really want some action done.
    Mr. Gosar. Well, that gets back to my aspects of that we 
have a lawless society in Washington, D.C., because we can't 
even get compliance with a subpoena by the attorney general of 
the United States. So that is also problematic, but that is 
another subject for another day. Actually, Thursday. But I 
thank you very, very much.
    I yield back the balance of my time.
    Mr. Collins. I thank the gentleman.
    The gentleman brings up a great point, though. In just 
listening to you, I love what these words are: we are still 
waiting. You made it just a second ago. How many times have we 
come into this room, and that is one of the things we are still 
waiting? Or I don't remember, or we are getting to it, or we 
are still waiting; oh, the report hasn't come out yet.
    And, yet, when you come inside basically the Beltway, the 
only area in the world right now, especially in the U.S. over 
the last few years, that is actually building, growing, and 
producing something which is not widgets, but they are jobs to 
do the things that we are talking about here in areas in which 
hurt business. They don't do things efficiently, they change up 
things.
    That is why I believe the Commission we are proposing--and, 
again, I am not, by any illusion, I was in Georgia. In the 
appropriations committee, appropriators, this is an area where 
we should be doing some of this; we are not doing it now. Not 
an indictment on anyone, I think it is just the politics of it. 
So we are actually putting together an up or down vote, a BRAC 
style vote. You put this up, there are going to be some things 
that you may not like, but you find the common agreement stuff. 
You are not going to get a report from a bipartisan commission 
that is going to have these things that most people don't agree 
with.
    We are looking at this and it also is six years and takes 
each appropriations bill two each year. So you are going 
through the whole appropriations bill process in six years. And 
then at the end it has a provision in which GAO will do a 
report to look at what actually happened in this process.
    So as we look at this, I think the other issue is getting 
control of the budget in and of itself. You said areas like 
this where we find this, why should these still be rewarded, 
and I think those are the things we are going to look at, my 
office is looking at, is to say if we see it in the report, 
then we need to make an amendment in the appropriations 
process; undoubtedly, you don't need this anymore.
    That is the one thing I think that we can continue on; it 
is one thing this committee needs to be a part of, because the 
American people, if there is one thing true, they are simply 
tired of saying we are still waiting. They can't wait on their 
jobs; they can't wait on their businesses; and Washington needs 
to do the same.
    So, with that, I see no one else. I would like to thank the 
witness for taking time from his busy schedule to appear before 
us today. When you come, you bring light. I hope now that we 
can take that light and actually put these into work.
    With that, the committee stands adjourned.
    [Whereupon, at 3:45 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
